No.

IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020
OUTHDORM RO8, Petitioner
v.
PEOPLE OF THE STATE OF CALIFORNIA, Respondent

PROOF OF SERVICE FOR PETITION FOR
A WRIT OF CERTIORARI TO THE CALIFORNIA COURT
OF APPEAL, FOURTH APPELLATE DISTRICT,
DIVISION ONE

T reside in the county of SAN DIEGO, State of California. 1am over the
age of 18 and not a party to the within action; My business address is 16985
West Bernardo Drive, Suite 260, San Diego, CA 92127. On June 10, 2021, I
served the foregoing documents described as:

1. MOTION TO PROCEED ON WRIT OF CERTIORARI IN FORMA PAUPERIS

2. DECLARATION OF JOHN L. STALEY IN SUPPORT OF MOTION TO
PROCEED ON WRIT OF CERTIORARI IN FORMA PAUPERIS

3. PETITION FOR A WRIT OF CERTIORARI TO THE CALIFORNIA COURT
OF APPEAL, FOURTH APPELLATE DISTRICT, DIVISION ONE

on all parties to this action by placing a true copy thereof enclosed in a sealed
envelope addressed as follows:

Clerk’s Office

United States Supreme Court

1 First St. N.EL

Washington, D.C. 20543

(Also filed electronically in compliance with Rule 29)

 

 
Clerk’s Office

Court of Appeal
Suite 300

750 B St.

San Diego, CA 92101

Office of the Attorney General
P. O. Box 85266

110 West A St., Suite 1100
San Diego, CA 92101

Outhdorm Ros

BK5751

P.O. Box 2229

Blythe, CA 92226 -

All parties required to be served have been served.

I caused such envelope with postage thereon fully prepaid to be placed in the
United States Mail at San Diego, California. Executed on June 10, 2021, at San
Diego, California. I declare under penalty of perjury undér the laws of the State
of California that the above is true and cgrrect.

 
 
    
 

y
ted States Supreme Court
Court Bar No. 235559

16935 West Bernardo Dr.
Suite 260

San Diego, CA 92127

(858) 335-2713
Johnstaleylaw@gmail.com

Counsel of Record

 

 

 

 
